No.

In the Supreme Court of the United States
UNITED STATES OF AMERICA, PETITIONER
v.
TIMOTHY ZACHARY GREEN
ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

PETITION FOR A WRIT OF CERTIORARI

ELIZABETH B. PRELOGAR
Acting Solicitor General
NICHOLAS L. MCQUAID
Acting Assistant Attorney
General
ERIC J. FEIGIN
Deputy Solicitor General
BENJAMIN W. SNYDER
Assistant to the Solicitor
General
THOMAS E. BOOTH
Attorney
Department of Justice
Washington, D.C. 20530-0001
SupremeCtBriefs@usdoj.gov
(202) 514-2217

QUESTION PRESENTED

Whether a court of appeals may, on plain-error review, affirm a conviction for possessing a firearm following a felony conviction, in violation of 18 U.S.C.
922(g)(1) and 924(a)(2), on the ground that the entire
record demonstrates that the defendant was not prejudiced by the application of later-overruled circuit precedent under which the government was not required to
charge or prove knowledge of felon status.

(I)

RELATED PROCEEDINGS

United States District Court (D. Md.):
United States v. Green, No. 17-cr-590 (May 3, 2019)
United States Court of Appeals (Fourth Circuit):
United States v. Green, No. 19-4348 (Aug. 28, 2020)

(II)

TABLE OF CONTENTS

Page
Opinion below ................................................................................ 1
Jurisdiction .................................................................................... 1
Statutory provisions and rule involved....................................... 1
Statement ...................................................................................... 2
Reasons for granting the petition ............................................... 6
Conclusion ..................................................................................... 7
Appendix A — Court of appeals opinion (Aug. 28, 2020)...... 1a
Appendix B — Court of appeals order (Oct. 19, 2020) .......... 8a
Appendix C — Statutory provisions and rule........................ 9a

(III)

In the Supreme Court of the United States
No.
UNITED STATES OF AMERICA, PETITIONER
v.
TIMOTHY ZACHARY GREEN
ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

PETITION FOR A WRIT OF CERTIORARI

The Acting Solicitor General, on behalf of the United
States of America, respectfully petitions for a writ of
certiorari to review the judgment of the United States
Court of Appeals for the Fourth Circuit in this case.
OPINION BELOW

The opinion of the court of appeals (App., infra, 1a7a) is reported at 973 F.3d 208.
JURISDICTION

The judgment of the court of appeals was entered on
August 28, 2020. A petition for rehearing was denied on
October 19, 2020 (App., infra, 8a). The jurisdiction of
this Court is invoked under 28 U.S.C. 1254(1).
STATUTORY PROVISIONS AND RULE INVOLVED

The pertinent statutory provisions and rule are reproduced in the appendix to this brief. App., infra, 9a11a.
(1)

2
STATEMENT

Following a jury trial in the United States District
Court for the District of Maryland, respondent was convicted on one count of possessing a firearm following a
felony conviction, in violation of 18 U.S.C. 922(g)(1) and
924(a)(2). App., infra, 1a. The court sentenced respondent to 84 months of imprisonment, to be followed
by three years of supervised release. Judgment 2-3.
The Fourth Circuit vacated and remanded with instructions to dismiss the indictment without prejudice.
App., infra, 1a-7a.
1. On June 29, 2017, a team of law enforcement officers executed an arrest warrant and apprehended respondent at a property in Camp Springs, Maryland.
App., infra, 2a. Respondent was wanted in connection
with a home invasion that he was accused of committing
at a family member’s residence several days earlier.
Ibid. When the officers arrived to make the arrest, respondent was sitting under an open-air gazebo in the
yard. Ibid. As the officers announced themselves and
approached him, respondent removed a firearm from
his pocket, placed it on the shelf of one of the gazebo’s
pillars, and backtracked away from the gazebo. Ibid.
The officers cornered respondent and took him into custody. Ibid.
A federal grand jury indicted respondent on one
count of possessing a firearm as a felon, in violation of
18 U.S.C. 922(g)(1). C.A. J.A. 13. The indictment alleged that respondent, “having been convicted of a
crime punishable by imprisonment for a term exceeding
one year, did knowingly possess a firearm in and affecting commerce.” Ibid.

3
2. Respondent proceeded to trial. At trial, he stipulated that “[p]rior to June 29, 2017, [he] had been convicted of a crime punishable by imprisonment for a term
exceeding one year as defined in 18 U.S.C. § 921, and he
had neither sought nor received restoration of his right
to possess a firearm.” C.A. J.A. 888; see id. at 664.
The district court instructed the jury that, in order
to find respondent guilty, it had to find three elements
established beyond a reasonable doubt: “First, that the
defendant was convicted, in any court, of a crime punishable by imprisonment for a term exceeding one year
* * * ; [s]econd, that the defendant knowingly possessed the firearm as charged; [a]nd third, that the possession charged was in or affecting interstate or foreign
commerce.” App., infra, 3a. As to the knowledge element, the district court further instructed the jury that
“the government is not required to prove that the defendant knew that he was breaking the law, nor is the
government required to prove that he knew that he had
been previously convicted of a crime punishable by imprisonment for more than one year.” Id. at 4a. Respondent did not object to the indictment or to the jury
instructions. Ibid.
The jury found respondent guilty. Judgment 1.
Prior to sentencing, the Probation Office prepared a
presentence report reflecting, as relevant here, that respondent previously had been convicted of multiple felony offenses and had served nearly a decade in prison.
C.A. J.A. 1142-1165. The district court sentenced respondent to 84 months of imprisonment, to be followed
by three years of supervised release. Judgment 2-3.
3. While respondent’s appeal was pending, this
Court held in Rehaif v. United States, 139 S. Ct. 2191

4
(2019), that in a Section 922(g)(1) prosecution, the government must prove both “that the defendant knew he
possessed a firearm and also that he knew he had the
relevant status when he possessed it,” id. at 2194. In
his appellate proceedings, respondent argued, for the
first time, that his indictment and conviction were invalid because the indictment did not allege, and the jury
had not been required to find, that he knew of his felon
status at the time he possessed the firearm at issue
here. See App., infra, 4a.
The court of appeals vacated and remanded with instructions to dismiss the indictment without prejudice.
App., infra, 1a-7a. At the outset, the court recognized
that because respondent did not raise his challenge to
the indictment or jury instructions in the district court,
he would need to satisfy the plain-error standard in order to secure appellate relief. Id. at 4a; see Fed. R.
Crim. P. 52(b). The court of appeals stated that to prevail on plain-error review, respondent “must show (1)
an error, (2) that is plain, and (3) that affected his substantial rights.” App., infra, 4a (citation omitted). The
court of appeals further stated that if respondent satisfied those requirements, “we ‘should exercise [our] discretion to correct the forfeited error if the error “seriously affects the fairness, integrity, or public reputation
of judicial proceedings.” ’ ” Id. at 5a (quoting RosalesMireles v. United States, 138 S. Ct. 1897, 1901 (2018)
(brackets in original)).
Because the parties had agreed that the first two
requirements of the plain-error test were satisfied,
the court of appeals focused on the remaining two
requirements—whether the error had affected respondent’s substantial rights, and whether leaving it

5
uncorrected would affect the integrity of judicial proceedings. App., infra, 5a. Applying the then-binding
decision of a separate panel of the court of appeals in
United States v. Medley, 972 F.3d 399 (4th Cir.), rehearing en banc granted, 828 Fed. Appx. 923 (2020), the
court found that respondent had satisfied those latter
two requirements. In particular, it “conclude[d] the errors warrant correction under plain error review” because the indictment failed to provide respondent with
sufficient notice of the knowledge-of-status element,
the jury was instructed that the Government was not
required to prove respondent had known his status, and
“[a]t trial, there was little—if any—evidence presented
that would support that [respondent] knew his prohibited
status.” App., infra, 7a. Although the court acknowledged the government’s reliance on information in the
presentence report showing that petitioner in fact “had
been convicted of several felonies, which led to him serving nearly a decade in prison,” id. at 5a, the court did not
appear to consider that evidence in assessing whether
plain-error relief was appropriate, see id. at 6a-7a.
4. On October 5, 2020, the government filed petitions for rehearing in both this case and Medley, supra.
The court of appeals denied the petition for rehearing
in this case on October 19, 2020. See App., infra, 8a. On
November 12, 2020, however, the en banc court of appeals granted the petition for rehearing in Medley and
directed that the case be set for oral argument. See 828
Fed. Appx. 923 (4th Cir.). The court of appeals subsequently suspended oral argument in Medley and placed
the case in abeyance pending a decision from this Court
in Greer v. United States, cert. granted, No. 19-8709

6
(oral argument scheduled for April 20, 2021). See Order, United States v. Medley, No. 18-4789 (4th Cir. Jan.
14, 2021).
REASONS FOR GRANTING THE PETITION

On January 8, 2021, this Court granted the petition for
a writ of certiorari in Greer v. United States, No. 19-8709,
to decide whether an appellate court may consider materials not presented to the jury—such as information
in a presentence report—in assessing whether to grant
plain-error relief to a defendant who was convicted of
possessing a firearm following a felony conviction based
on an indictment and jury instructions that did not accurately reflect the knowledge-of-status requirement announced by this Court in Rehaif v. United States, 139 S.
Ct. 2191 (2019). This Court’s decision in Greer may affect
the proper disposition of this case. Indeed, the court of
appeals has already placed United States v. Medley, on
which the decision here was based, in abeyance pending
a decision in Greer. See Order, United States v. Medley,
No. 18-4789 (4th Cir. Jan. 14, 2021). The petition for a
writ of certiorari in this case should similarly be held
pending the Court’s decision in Greer, and then disposed
of as appropriate in light of that decision.

7
CONCLUSION

The petition for a writ of certiorari should be held
pending this Court’s decision in Greer v. United States,
cert. granted, No. 19-8709 (oral argument scheduled for
April 20, 2021), and then disposed of as appropriate in
light of that decision.
Respectfully submitted.
ELIZABETH B. PRELOGAR
Acting Solicitor General
NICHOLAS L. MCQUAID
Acting Assistant Attorney
General
ERIC J. FEIGIN
Deputy Solicitor General
BENJAMIN W. SNYDER
Assistant to the Solicitor
General
THOMAS E. BOOTH
Attorney

MARCH 2021

APPENDIX A
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

No. 19-4348
(8:17-cr-00590-GJH-1)
UNITED STATES OF AMERICA, PLAINTIFF-APPELLEE
v.
TIMOTHY ZACHARY GREEN, DEFENDANT-APPELLANT
Submitted: May 8, 2020
Decided: Aug. 28, 2020
Appeal from the United States District Court
for the District of Maryland, at Greenbelt
George Jarrod Hazel, District Judge
Before: GREGORY, Chief Judge, WYNN, and HARCircuit Judges.

RIS,

GREGORY, Chief Judge:
Timothy Green was indicted, tried, and convicted of
a single count of being a felon in possession of a firearm,
in violation of 18 U.S.C. § 922(g). The district court
sentenced Green to 84 months in prison and three years
of supervised release. Green’s indictment alleged, and
the jury was instructed it must find, that Green knew he
possessed the firearm. But neither the grand jury nor
the petit jury considered whether Green “knew he belonged to the relevant category of persons barred from
(1a)

2a
possessing a firearm.” Rehaif v. United States, 139 S. Ct.
2191, 2200 (2019). Recently, in United States v. Medley, — F.3d — (4th Cir. 2020), we held that the failure of
an indictment to provide proper notice combined with an
improper jury instruction that omits an element of a
crime are substantial errors that ought to be corrected
under plain error review. For similar reasons, we vacate Green’s conviction and remand this case to the district court for further proceedings.*
I.
On June 29, 2017, a law enforcement team executed
an arrest warrant and apprehended Green at a property
in Camp Springs, Maryland. Green was wanted for a
home invasion incident that occurred at a family member’s residence a few days earlier. The officers testified that when they arrived on the scene, Green was sitting with the property’s owner under an open-air gazebo
in the yard. As the officers announced themselves and
moved to make the arrest, Green removed a firearm
from his pocket, placed it on the shelf of one of the gazebo’s pillars, and backtracked away from the gazebo.
The officers cornered Green and he was taken into custody.
On November 6, 2017, a grand jury returned a onecount indictment charging Green with being a felon in
possession of a firearm, in violation of 18 U.S.C.
§ 922(g)(1). The indictment read as follows:

Because Green’s Rehaif claims sufficiently resolves this case,
we do not consider his claims that the district court erred in denying his motion to suppress and by enhancing his sentence based on
unreliable, and unrelated, allegations.
*

3a
On or about June 29, 2017, in the District of Maryland, the defendant, Timothy Zachary Green, having
been convicted of a crime punishable by imprisonment for a term exceeding one year, did knowingly
possess a firearm in and affecting commerce, specifically, a loaded Taurus Millennium PT111 G2, 9 millimeter semiautomatic handgun.
J.A. 13.
Prior to trial, Green moved to suppress the firearm,
arguing that he had a reasonable expectation of privacy
on the property and the officers lacked a sufficient basis
to search the gazebo, which was part of the property.
After conducting an evidentiary hearing, the district
court rejected Green’s Fourth Amendment challenge,
denied the motion to suppress, and permitted the case
to proceed to trial.
After a three-day jury trial, the district court instructed the petit jury on what it had to find in order to
convict Green of the single § 922(g) offense. The court
read the indictment to the jury and clarified the three
elements that the Government was required to prove beyond a reasonable doubt.
First, that the defendant was convicted, in any
court, of a crime punishable by imprisonment for a
term exceeding one year . . . ;
Second, that the defendant knowingly possessed
the firearm as charged;
And third, that the possession charged was in or
affecting interstate or foreign commerce.
J.A. 753. When discussing the knowledge element, the
district court instructed the jury that it must “find that

4a
the defendant knowingly possessed the firearm.” J.A.
755. “However,” the court continued, “the government
is not required to prove that the defendant knew that he
was breaking the law, nor is the government required to
prove that he knew that he had been previously convicted of a crime punishable by imprisonment for more
than one year.” J.A. 755-56.
The jury returned a guilty verdict. And the district
court sentenced Green to 84 months in prison and three
years of supervised release. Green timely appealed.
II.
A.
On appeal, Green argues that the Supreme Court’s
recent decision in Rehaif v. United States, 139 S. Ct.
2191 (2019), renders his indictment and conviction invalid. In Rehaif, the Supreme Court held that to convict
a defendant of violating 18 U.S.C. § 922(g), the government “must show that the defendant knew he possessed
a firearm and also that he knew he had the relevant status when he possessed it.” 139 S. Ct. at 2194. Here,
Green argues that neither the indictment nor the jury
instructions included a crucial element of the offense—
that he knew his relevant status when he possessed the
firearm. Thus, by permitting him to be tried on an indictment, and convicted based on jury instructions, that
omitted the prohibited status element, Green argues, his
constitutional rights were inexcusably violated.
Where, as here, a party raises an issue that was not
raised in the district court, we review for plain error.
See United States v. Olano, 507 U.S. 725, 731 (1993).
Under this standard, Green “must show (1) an error, (2)
that is plain, and (3) that affected his substantial rights.”

5a
United States v. Dennison, 925 F.3d 185, 190 (4th Cir.
2019). If these conditions are met, we “should exercise
[our] discretion to correct the forfeited error if the error
‘seriously affects the fairness, integrity, or public reputation of judicial proceedings.’ ” Rosales-Mireles v.
United States, 138 S. Ct. 1897, 1901, 201 L. Ed. 2d 376
(2018) (internal citation omitted). When reviewing for
plain error, “an appellate court must apply the law in
effect at the time it renders its decision.” Henderson
v. United States, 568 U.S. 266, 271 (2013) (internal citation omitted).
B.
Both parties agree that in light of the Supreme
Court’s intervening decision in Rehaif, the first two elements of the plain error standard are satisfied. It was
plain error for Green to be tried on an indictment, and
convicted based on jury instructions, that omitted the
prohibited status element. However, the parties dispute whether these errors affected Green’s substantial
rights and the integrity of the judicial proceedings.
Accordingly, we focus on the third and fourth prongs of
plain error review.
The Government argues that Green cannot show that
the errors in the indictment and jury instructions affect
his substantial rights or the fairness of the judicial proceedings. In the Government’s view, the prohibited
status element is one that the Government could have
easily proven to the grand jury and the petit jury.
Pointing to the Presentence Report, the Government
proclaims that Green had been convicted of several felonies, which led to him serving nearly a decade in prison
for these combined crimes. Moreover, the Government continues, Green’s stipulation at trial barred the

6a
Government from introducing additional evidence related to Green’s prior convictions. “Had the Supreme
Court decided Rehaif prior to Green’s trial,” the Government predicts, “Green would have either stipulated
that he was aware of his prior felony conviction or the
government would have introduced” overwhelming evidence that Green knew his prohibited status. Gov. Br.
at 43. Thus, the omission of the prohibited status element did not prejudice Green or change the result before the grand jury or at trial.
We recently rejected the same argument the Government raises in its brief. Medley, — F.3d at —. In
Medley, the government argued that we should excuse
the mistakes in the indictment and jury instructions
when the record demonstrates that it did not affect the
outcome of the proceedings. [Id. at —.] [10; 19]. We
held that the petitioner showed that the flawed indictment prejudiced him because it failed to provide sufficient notice of the accusations against him. [Id. at —.]
[17–18]. We also held that the district court’s failure to
instruct the jury on the prohibited status element, and
the government’s failure to present sufficient evidence
on this point at trial, prejudiced the petitioner. [Id. at
—.] [22–27]. Because these combined errors were sufficient to undermine the confidence in the outcomes of
the proceedings, we exercised our discretion to correct
the errors.
Applying the same reasoning, we conclude that the
errors here also warrant correction. Green’s indictment failed to provide him with notice that the Government would attempt to prove that he knew his prohibited status. Afterwards, Green’s conviction was predicated on an indictment that failed to allege an essential

7a
element of an offense and a verdict by a jury that was
informed the Government was not required to prove
that Green knew his prohibited status. At trial, there
was little—if any—evidence presented that would support that Green knew his prohibited status. Thus, the
errors here “occurred at the inception of the Government’s case against [Green] and continued throughout.”
[Id. at —.] [28]. Under these circumstances, we conclude the errors warrant correction under plain error
review.
III.
We therefore vacate Green’s § 922(g)(1) conviction
and remand with instructions to the district court to enter judgment dismissing this count without prejudice.
VACATED AND REMANDED
WITH INSTRUCTIONS

8a
APPENDIX B
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

No. 19-4348
(8:17-cr-00590-GJH-1)
UNITED STATES OF AMERICA, PLAINTIFF-APPELLEE
v.
TIMOTHY ZACHARY GREEN, DEFENDANT-APPELLANT
Filed: Oct. 19, 2020
ORDER

The court denies the petition for rehearing and rehearing en banc. No judge requested a poll under Fed.
R. App. P. 35 on the petition for rehearing en banc.
Entered at the direction of the panel: Chief Judge
Gregory, Judge Wynn, and Judge Harris.
For the Court
/s/

PATRICIA S. CONNOR, Clerk
PATRICIA S. CONNOR

9a
APPENDIX C

1.

18 U.S.C. 922(g) provides:

Unlawful acts

(g) It shall be unlawful for any person—
(1) who has been convicted in any court of, a crime
punishable by imprisonment for a term exceeding
one year;
(2)

who is a fugitive from justice;

(3) who is an unlawful user of or addicted to any
controlled substance (as defined in section 102 of the
Controlled Substances Act (21 U.S.C. 802));
(4) who has been adjudicated as a mental defective or who has been committed to a mental institution;
(5)

who, being an alien—

(A) is illegally or unlawfully in the United
States; or
(B) except as provided in subsection ( y)(2),
has been admitted to the United States under a
nonimmigrant visa (as that term is defined in section 101(a)(26) of the Immigration and Nationality
Act (8 U.S.C. 1101(a)(26)));
(6) who has been discharged from the Armed
Forces under dishonorable conditions;
(7) who, having been a citizen of the United States,
has renounced his citizenship;
(8)

who is subject to a court order that—

10a
(A) was issued after a hearing of which such
person received actual notice, and at which such
person had an opportunity to participate;
(B) restrains such person from harassing,
stalking, or threatening an intimate partner of
such person or child of such intimate partner or
person, or engaging in other conduct that would
place an intimate partner in reasonable fear of
bodily injury to the partner or child; and
(C)(i) includes a finding that such person represents a credible threat to the physical safety of
such intimate partner or child; or
(ii) by its terms explicitly prohibits the use,
attempted use, or threatened use of physical force
against such intimate partner or child that would
reasonably be expected to cause bodily injury; or
(9) who has been convicted in any court of a misdemeanor crime of domestic violence,
to ship or transport in interstate or foreign commerce,
or possess in or affecting commerce, any firearm or ammunition; or to receive any firearm or ammunition which
has been shipped or transported in interstate or foreign
commerce.
2.

18 U.S.C. 924(a)(2) provides:

Penalties

(2) Whoever knowingly violates subsection (a)(6),
(d), (g), (h), (i), ( j), or (o) of section 922 shall be fined as
provided in this title, imprisoned not more than 10 years,
or both.

11a
3.

Fed. R. Crim. P. 52 provides:

Harmless and Plain Error
(a) Harmless Error.

Any error, defect, irregularity, or variance that does not affect substantial rights
must be disregarded.
(b) Plain Error.

A plain error that affects substantial rights may be considered even though it was not
brought to the court’s attention.

